                               Report Template Update = 04-30-05_rev.13




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





PREADMISSION SCREENING AND 

   RESIDENT REVIEW FOR 

 YOUNGER NURSING FACILITY 

  RESIDENTS WITH MENTAL 

       RETARDATION





                    Daniel R. Levinson

                     Inspector General 


                      January 2007

                     OEI-07-05-00230

                                                           Report Template Update = 04-30-05_rev.13




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG’s internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   E X E C U T I V E                                   S U M M A R Y                                              



                  OBJECTIVES
                  1.	 To examine the extent to which Preadmission Screening and
                      Resident Review (PASRR) requirements were addressed for
                      Medicaid nursing facility residents aged 22 to 64 with mental
                      retardation within selected States and selected nursing facilities.

                  2. 	 To assess Federal and State oversight of the PASRR process.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 (OBRA 87) mandated
                  preadmission screening for individuals suspected of having serious
                  mental illness and mental retardation to ensure that: (1) nursing
                  facilities admit only individuals needing nursing facility care, (2) these
                  individuals’ needs for specialized services are determined, and (3) these
                  individuals obtain the services identified through the preadmission
                  screening. The PASRR is the primary mechanism used to meet these
                  objectives. This report focuses exclusively on the PASRR as it relates to
                  individuals with mental retardation. We concurrently conducted a
                  separate review of the PASRR as it relates to individuals with serious
                  mental illness.

                  All individuals who apply to or reside in Medicaid nursing facilities are
                  required to receive a Level I PASRR screen to identify suspected mental
                  retardation. Those suspected of having mental retardation must receive
                  a Level II PASRR evaluation to confirm that they have mental
                  retardation, to determine whether they require nursing facility services,
                  and to determine whether they require specialized services.

                  To assess the PASRR, we reviewed nursing facility resident case files
                  and randomly selected Level II PASRR evaluations from each selected
                  State. We conducted structured interviews with the Centers for
                  Medicare & Medicaid Services (CMS) staff, State officials, and
                  administrators and staff from nursing facilities. We conducted our
                  review in 5 States and 20 nursing facilities, resulting in a review of
                  101 resident case files and 121 Level II evaluations.


                  FINDINGS
                  While Level I screens were present in 88 percent of selected
                  resident case files, one-fourth of these were completed late. Federal
                  regulations require the State’s PASRR program to identify all individuals


OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         i
                                                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E                      S U           M M A R Y


                   who are suspected of having mental retardation; this is termed a Level I
                   screen. We found evidence of Level I screens in 89 of the 101 resident
                   case files (88 percent). Of these 89 case files, 22 were not completed prior
                   to or on the date of admission. These 22 Level I screens took place an
                   average of 40 days after the resident was admitted to the nursing facility.
                   Fifty-two percent of selected resident case files contained neither a
                   Level II evaluation nor a Level II determination. If mental retardation
                   is suspected, the individual is referred for a Level II PASRR evaluation.
                   In one selected State, none of the 24 case files from selected nursing
                   facilities contained Level II evaluations. Of the 18 Level II evaluations
                   that were in the case files reviewed in the other 4 States, 7 were not
                   completed prior to or on the date of admission. These seven Level II
                   evaluations were completed an average of 23 days after the resident had
                   been admitted to the nursing facility. States must determine whether
                   an individual with mental retardation requires a nursing facility level of
                   services and whether specialized services are needed. Of the 101
                   selected case files, 56 lacked documented evidence of the Level II
                   determination.
                   Twenty-two percent of sampled Level II evaluations did not contain
                   evidence that the evaluator assessed whether the individual’s total
                   needs could be met in a community setting. In the remainder of the
                   cases, evaluators documented their assessments of the individual’s
                   medical needs, mental status, and independent living skills to
                   substantiate the most appropriate setting for the individual.
                   CMS and the survey and certification agencies in the five States that
                   we reviewed conducted limited oversight. Only 2 of the 10 CMS
                   regional offices have conducted onsite PASRR reviews in the past
                   3 years. One of the five selected States failed to track and maintain
                   Level II evaluations as required. Survey and certification agencies in
                   the five selected States conducted limited oversight of the PASRR
                   processes in nursing facilities.




 OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                          ii
                                                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E                      S U           M M A R Y 





                   RECOMMENDATIONS
                   The OBRA 87 mandated preadmission screening to ensure that
                   individuals with mental retardation are not inappropriately placed in
                   Medicaid nursing facilities. The PASRR is the primary mechanism used
                   to ensure that individuals with mental retardation require the level of
                   services provided by a nursing facility and to determine whether the
                   individual requires specialized services. As such, it is essential that all
                   State PASRR systems work effectively.

                   We based our findings on selected case files and a random sample of
                   Level II evaluations from five selected States. As such, we do not
                   project our results. However, our findings identify deficiencies that
                   should be addressed to ensure that individuals with mental retardation
                   are appropriately placed and receive necessary mental retardation
                   services.

                   We recommend that CMS hold State Medicaid agencies accountable for
                   ensuring compliance with Federal requirements. Specifically, we
                   recommend that:
                   o	 every nursing facility applicant receive a Level I screen prior to
                      nursing facility admission, and
                   o	 all individuals with suspected mental retardation receive a Level II
                      evaluation and determination prior to nursing facility admission
                      and that all Level II PASRR documentation is shared with the
                      admitting nursing facility.
                   We also recommend that CMS hold States accountable for considering
                   community placements during the Level II PASRR process. Finally, we
                   recommend that CMS revise survey and certification requirements to
                   ensure that State surveyors sample residents with mental retardation
                   and review the PASRR documentation for timely completion.


                   AGENCY COMMENTS
                   CMS concurred with all of our recommendations to ensure that States
                   implement an effective and timely Level I and Level II process. CMS’s
                   comments did not warrant any revisions to the results of our review or
                   to our recommendations.




 OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                          iii
                                                                     Report Template Update = 04-30-05_rev.13




Δ   T A B L E          O F           C O N T E N T S                              




          EXECUTIVE SUMMARY .................................... i




          INTRODUCTION............................................ 1




          FINDINGS.................................................. 9

                    While Level I screens were present in 88 percent of selected 

                    resident case files, one-fourth of these were completed late . . . . . . 9 


                    Fifty-two percent of selected resident case files contained neither 

                    a Level II evaluation nor a Level II determination . . . . . . . . . . . . . 9 


                    Level II evaluations did not contain evidence of total needs 

                    assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    CMS and the survey and certification agencies in the five States 

                    that we reviewed conducted limited oversight . . . . . . . . . . . . . . . . 11 




          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    A: 	Examples of State Practices Other Than PASRR That May 

                        Address Placement and Provision of Services . . . . . . . . . . . . . 16 


                    B: 	PASRR Oversight Practices in One State . . . . . . . . . . . . . . . . . 17 


                    C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                                                                                               Report Template Update = 04-30-05_rev.13




Δ   I N T R O D U C T I O N                                                   



                  OBJECTIVES
                  1.	 To examine the extent to which Preadmission Screening and
                      Resident Review (PASRR) requirements were addressed for
                      Medicaid nursing facility residents aged 22 to 64 with mental
                      retardation within selected States and selected nursing facilities.

                  2. 	 To assess Federal and State oversight of the PASRR process.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 (OBRA 87) mandated
                  preadmission screening for individuals suspected of having mental
                  illness and mental retardation or related conditions1 to ensure that:
                  (1) nursing facilities admit only individuals needing nursing facility
                  care, (2) these individuals’ needs for specialized services are determined,
                  and (3) these individuals obtain the services identified through the
                  preadmission screening. The PASRR is the primary mechanism used to
                  meet these objectives.

                  In the 1960s, a number of class action lawsuits revealed poor conditions
                  and treatment of patients with mental retardation in large public
                  institutions. During the 1970s, legal challenges sought to improve the
                  conditions at these facilities and to eliminate unnecessary
                  institutionalization of people with mental retardation capable of living
                  in the community.2
                  In addition, in 1999, the Supreme Court held in Olmstead v. L.C.
                  (Olmstead) that “the treatment, services, and habilitation for a person
                  with developmental disabilities . . . should be provided in the setting
                  that is least restrictive of the person’s personal liberty.”3 Olmstead held
                  that States are required to provide community-based treatment for
                  persons with mental disabilities when the State’s treatment
                  professionals determine that such placement is appropriate, the affected
                  persons do not oppose such treatment, and the placement can be

                     1 Related conditions are defined by 42 CFR § 435.1009; cerebral palsy and epilepsy are

                  examples of related conditions. Hereinafter, references to mental retardation include both
                  mental retardation and related conditions.
                    2 DeWayne Davis et al. “Deinstitutionalization of Persons with Developmental
                  Disabilities: A Technical Assistance Report for Legislators.” Available online at
                  http://www.ncsl.org/programs/health/Forum/pub6683.htm. Accessed March 7, 2006.
                    3 Olmstead v. L.C. 527 U.S. 581 (1999), 138 F.3d 893, affirmed in part, vacated in part,
                  and remanded.



OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         1
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    reasonably accommodated, taking into account the resources available
                    to the State and the needs of others with mental disabilities.

                    In response to Olmstead, the Secretary of the Department of Health and
                    Human Services issued guidance to States in the form of a letter to
                    State Medicaid Directors. The letter states that “no one should have to
                    live in an institution or a nursing facility if they can live in the
                    community with the right support.”4 In addition, the President’s New
                    Freedom Initiative, begun in 2001, aims to remove barriers to
                    community living for persons with disabilities.5
                    The Office of Inspector General (OIG) and the Substance Abuse and
                    Mental Health Services Administration have conducted studies on
                    States’ implementation of the PASRR for persons with mental illness.6
                    Both agencies found a lack of compliance with Federal regulations
                    related to the PASRR. To date, no study has been conducted specific to
                    the PASRR for persons with mental retardation.
                    Preadmission Screening and Resident Review
                    Federal law requires that a nursing facility may not admit an applicant
                    who is mentally retarded unless the State Mental Retardation
                    Authority (SMRA) or its delegate has determined prior to admission
                    that the individual requires the level of services provided by a nursing
                    facility and, if the individual requires that level of services, whether the
                    individual requires specialized services for mental retardation.7 As a
                    condition of the Centers for Medicare & Medicaid Services’ (CMS)
                    approval of a Medicaid State plan, the State must operate a
                    preadmission screening program that complies with Federal
                    regulations.8 The intent of the PASRR is to ensure that individuals
                    with mental retardation are appropriately screened, thoroughly
                    evaluated, and placed in nursing facilities when appropriate, and that
                    they receive all necessary services.


                       4 State Medicaid Director Letter, January 14, 2000.
                       5 Department of Health and Human Services, “The New Freedom Initiative.” Available
                    online at http://www.hhs.gov/newfreedom/init.html. Accessed May 15, 2006.
                      6 2001 OIG report, “Younger Nursing Facility Residents With Mental Illness:
                    Preadmission Screening and Resident Review (PASRR) Implementation and Oversight”
                    (OEI-05-99-00700); and U.S. Department of Health and Human Services, Substance Abuse
                    and Mental Health Services Administration, “PASRR Screening for Mental Illness in
                    Nursing Facility Applicants and Residents” (2005).
                      7 42 U.S.C. § 1396r(b)(3)(F)(ii). SMRAs are generally responsible for the planning, policy
                    development, and resource allocation of services for persons with mental retardation.
                       8 42 CFR § 483.104.



 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           2
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    Level I Screens. All individuals who apply to or reside in a
                    Medicaid-certified nursing facility, regardless of payer, are required to
                    receive a Level I PASRR screen to identify possible mental retardation.9
                    These screens typically consist of preprinted forms unique to each State
                    and generally record demographic information and diagnoses. Level I
                    screens are completed by hospital discharge planners and nursing
                    facility personnel. Individuals suspected of having mental retardation
                    must also receive a Level II PASRR evaluation.10
                    Level II Evaluations and Determinations. The Level II PASRR objectives
                    are to confirm whether the applicant has mental retardation, assess the
                    applicant’s need for nursing facility services, and determine whether the
                    applicant requires specialized services for mental retardation.11 SMRA
                    has responsibility for both the evaluation and the determination
                    functions, but may delegate by subcontracting these responsibilities to
                    another State agency (e.g., State department on aging).12
                    SMRA or the contracted agency makes the final determination on
                    whether a person requires nursing facility placement. SMRA may
                    verbally convey Level II PASRR determinations to nursing facilities and
                    individuals, but must subsequently confirm the determination in
                    writing.13
                    Determinations made by SMRA as to whether nursing facility level of
                    services and specialized services are needed must be based on a Level II
                    evaluation. However, SMRA may make determinations for categories of
                    persons likely to require nursing facility level of services or for whom
                    specialized services are not normally needed (e.g., in cases of terminal
                    illness or severe physical illnesses such as coma), which can be based on
                    existing sources of data (e.g., hospital or physician’s records) and do not
                    require a Level II evaluation.14




                       9 42 CFR §§ 483.106 and 483.128(a). 

                       10 42 CFR § 483.128(a). 

                       11 Ibid. 

                       12 42 CFR § 483.106(e). 

                       13 42 CFR § 483.112(c)(2). 

                       14 42 CFR § 483.130. 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           3
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    Assessment of Individual Needs and Appropriate Placement. Federal
                    regulations require evaluators to assess whether an individual’s total
                    needs can be met in a community setting or only on an inpatient basis
                    (e.g., nursing facility, intermediate care facility for the mentally
                    retarded, or waiver program).15 Level II determination notices must
                    include the placement options that are available given the results of the
                    evaluator’s assessment.16 If an individual’s needs can be met in the
                    community, then nursing facility services are not needed.
                    Determining Services for Nursing Facility Residents With Mental Retardation.
                    Level II PASRR evaluations must identify whether specialized services
                    are necessary. For mental retardation, specialized services are the
                    services specified by the State which, when combined with services
                    provided by the nursing facility or other service providers, result in a
                    continuous active treatment program.17 The purpose of the treatment
                    program is to: (1) develop the behaviors necessary for the client to
                    function with as much self-determination and independence as possible,
                    and (2) prevent or decelerate regression or loss of current optimal
                    functional status.18 The State must provide or arrange for the provision
                    of specialized services to all nursing facility residents with mental
                    retardation requiring continuous supervision, treatment, and training
                    by qualified mental retardation professionals as identified in the
                    Level II PASRR evaluations.19
                    When specialized services are not recommended, Level II PASRR
                    evaluations must identify any specific services of lesser intensity that
                    are required to meet the individual’s mental retardation needs.20 The
                    nursing facility must provide mental retardation services of lesser
                    intensity to all residents who need such services.21 Medicaid does not
                    separately reimburse these services of lesser intensity; they are
                    considered a condition of participation and must be paid by the nursing
                    facility or under some other arrangement with the State.




                       15 42 CFR § 483.132. 

                       16 42 CFR § 483.130(l)(3). 

                       17 42 CFR §§ 483.120(a)(2) and 483.136. 

                       18 42 CFR § 483.440(a). 

                       19 42 CFR § 483.120(b). 

                       20 42 CFR § 483.128(i)(4). 

                       21 42 CFR § 483.120(c). 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           4
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    Level II Resident Reviews for Significant Changes in Condition. In addition to
                    initial Level II PASRR evaluations and determinations, nursing facility
                    residents may receive subsequent Level II PASRR evaluations and
                    determinations during their nursing facility stay. Federal law requires
                    resident reviews when there is a significant change in a resident’s
                    physical or mental condition.22
                    Federal and State Oversight of the PASRR
                    The State Medicaid agencies and CMS share responsibility for enforcing
                    PASRR requirements. State Medicaid agencies must deny Medicaid
                    payments for nursing facility services provided to individuals who do
                    not have a PASRR determination requiring these services.23
                    CMS contracts with State Medicaid agencies to survey and certify
                    nursing facilities to verify compliance with Federal requirements. Each
                    nursing facility is subject to a standard, unannounced survey by a
                    multidisciplinary team of professionals at least every 15 months.24 For
                    these surveys, a sample of resident records is selected for review. If
                    sampled nursing facility residents have mental retardation, then
                    surveyors must determine whether nursing facility services and
                    specialized services were needed.25 Surveyors cite noncompliance with
                    Federal regulations using deficiency tags.
                    Concurrent Office of Inspector General Evaluation
                    Concurrent with this evaluation, OIG conducted an evaluation on
                    “Preadmission Screening and Resident Review for Younger Nursing
                    Facility Residents With Serious Mental Illness” (OEI-05-05-00220).
                    These studies were produced separately because in many States the
                    mental retardation service delivery system is distinct from the mental
                    health service delivery system.


                    METHODOLOGY
                    We reviewed the PASRR process in five States (Connecticut, Missouri,
                    Texas, Washington, and West Virginia). We used the 2004 Minimum
                    Data Set (MDS) data to array all States from the highest to the lowest
                    proportion of Medicaid nursing facility residents who are younger (aged



                       22 42 U.S.C. § 1396r(b)(3)(C)(i)(II).

                       23 42 U.S.C. § 1396r (e)(7)(D). 

                       24 42 U.S.C. § 1396r(g)(2)(A)(iii). 

                       25 CMS State Operations Manual, Appendix PP, § 483.20(m). 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           5
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    22 to 64) and identified as having mental retardation.26 From the
                    States with a higher proportion of our target population, we purposively
                    selected five States to achieve diversity in areas that included
                    geographic location and size of State. We chose different States from
                    the concurrent OIG evaluation to reduce the burden on States
                    participating in our reviews.
                    Data Collection
                    We collected data from six sources for this inspection: (1) case file
                    reviews of selected Medicaid nursing facility residents aged 22 to
                    64 with mental retardation; (2) structured interviews with agency
                    officials from selected States; (3) structured interviews with
                    administrators and staff from selected nursing facilities; (4) structured
                    interviews with CMS staff; (5) review of oversight documentation from
                    selected State agencies and CMS; and (6) review of randomly selected
                    Level II PASRR evaluations from each selected State.
                    Case File Reviews of Nursing Facility Residents
                    Within each selected State, we used the same 2004 MDS data to select
                    four nursing facilities in the vicinity of the State’s capitol city with a
                    high prevalence of our target population. We selected 10 current
                    residents from each nursing facility meeting our criteria. If 10 or fewer
                    residents met our criteria, we selected all residents meeting our criteria.
                    We reviewed a total of 101 case files. As shown in Table 1, the number
                    of files reviewed in each State ranges from 10 to 32.

                    Federal law requires nursing
                                                                                                 Table 1: Nursing Facility
                    facilities to maintain the results                                           Resident Case Files Reviewed In
                    of any preadmission screening.27                                             Each State
                    We sought Level I screens and
                    Level II evaluations and                                                              State
                                                                                                                               Number of Case Files
                                                                                                                                   Reviewed
                    determinations in each resident’s
                    file. We were able to discern the                                                         1                               32
                                                                                                              2                               20
                    difference between Level II
                                                                                                              3                               24
                    evaluations and determinations;                                                           4                               15
                    therefore, we analyzed each                                                               5                               10
                    document separately. We asked                                                         Total                               101
                                                                                                                                           Source: OIG, 2005.

                      26 Our criteria are based on residents with diagnoses of mental retardation or related
                    condition (e.g., epilepsy, cerebral palsy), as indicated in items 9 and 10 of Section AB of the
                    MDS. Many selected residents also had co-occurring diagnoses of mental illness. Residents
                    with such co-occurring diagnoses were included in our review.
                       27 42 U.S.C. § 1396r(b)(6)(C).




 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                                                6
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    nursing facility administrators to produce the PASRR documentation
                    when it was not found in the resident’s file. We also reviewed residents’
                    files to determine whether Level II PASRR evaluations identified
                    specialized mental retardation services to be provided by the State and
                    services of lesser intensity to be provided by the nursing facility. We
                    then reviewed the resident’s treatment plan to determine whether
                    identified specialized services and services of lesser intensity were
                    included. We did not verify whether these services were provided, nor
                    did we conduct a medical review to determine the necessity of these
                    services.
                    Structured Interviews and Documentation Review
                    In each of our five selected States, we interviewed representatives from
                    the State Medicaid agency, SMRA, State survey and certification
                    agency, and Level II PASRR evaluators. We asked questions regarding
                    the PASRR processes and oversight. We also collected States’ Level I
                    PASRR forms, Level II PASRR evaluation forms, PASRR-related
                    guidance sent to nursing facilities, and PASRR policy documents.

                    At each of the 20 selected nursing facilities, we interviewed the nursing
                    facility administrator and other nursing facility staff responsible for the
                    PASRR process and the coordination and provision of mental
                    retardation services. We asked questions regarding the PASRR
                    processes, its oversight, and its use in care planning.

                    We interviewed the PASRR staff from CMS headquarters and each
                    regional office regarding PASRR oversight. We also collected
                    documentation of CMS oversight activities, including draft guidance.
                    Review of Level II PASRR Evaluations
                    To systematically review Level II evaluations, we requested data on the
                    total number of Level II PASRR evaluations conducted in 2004 and the
                    resulting placements from each of the five States. We reviewed
                    30 randomly selected Level II PASRR evaluations conducted in
                    2004 from each of 4 States but received only 1 from the fifth State, for a
                    total of 121 Level II evaluations.
                    Scope
                    Our review of the PASRR is limited to Medicaid nursing facility
                    residents aged 22 to 64 with mental retardation in five selected States.
                    We purposively selected States and the nursing facilities within those
                    States. As such, we do not project our results to the universe of States,
                    individual States, nursing facilities, or nursing facility residents.


 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           7
                                                                                                 Report Template Update = 04-30-05_rev.13




I N T R O D        U C T             I O N


                    Standards
                    This study was conducted in accordance with “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           8
                                                                                                      Report Template Update = 04-30-05_rev.13




   Δ       F I N D I N G S 


                                                             Federal law requires preadmission
While Level I screens were present in 88 percent             screening of all individuals with
    of selected resident case files, one-fourth of           mental retardation or mental illness
                      these were completed late              who apply to or reside in
                                                             Medicaid-certified nursing facilities
                         regardless of the source of payment. 28 This report focuses exclusively
                         on the PASRR as it relates to individuals with mental retardation.
                         These results are not projectable to the universe of States, individual
                         States, nursing facilities, or nursing facility residents.

                         Federal regulations require the State’s PASRR program to identify all
                         individuals who are suspected of having mental retardation; this is
                         termed a Level I screen. 29 We found evidence of Level I screens in 89 of
                         the 101 resident case files. Of these 89 case files, 22 were not completed
                         prior to or on the date of admission. These 22 Level I screens took place
                         an average of 40 days after the resident was admitted to the nursing
                         facility.

                         If mental retardation is suspected, the individual is referred for a
                         Level II PASRR evaluation.



    Fifty-two percent of selected resident case files         Eighty-one percent of selected
          contained neither a Level II evaluation nor         resident case files did not contain
                                                              Level II evaluations, and
                             a Level II determination
                                                              55 percent did not contain Level II
                         determinations. Only 18 resident case files contained evaluations (7 of
                         which were completed late), and 45 resident case files contained
                         determinations.
                         Level II evaluations were either missing or late
                         Federal regulations provide certain circumstances in which SMRA may
                         make determinations for categories of persons likely to require nursing
                         facility level of services (e.g., in cases of terminal illness or severe
                         physical illnesses such as coma) that can be based on existing sources of
                         data and do not require a Level II evaluation. 30 In the 101 resident
                         case files that we reviewed, 5 contained documentation indicating that
                         they met these circumstances and did not require a Level II evaluation.


                            28 42 U.S.C. § 1396r(e)(7)(A)(1). 

                            29 42 CFR § 483.128(a). 

                            30 42 CFR §§ 483.128(m) and 483.130(b). 





       OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                                9
                                                                                                   Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S


                      Of the remaining 96 resident case files, 78 lacked evidence of a Level II
                      evaluation. In 1 selected State, none of the 24 selected case files
                      contained Level II evaluations. Administrators of the four selected
                      nursing facilities in the State indicated that all they received was a
                      form with a signature indicating that the individual met medical
                      necessity criteria for nursing facility placement. These forms lacked
                      other information, such as cognitive tests, that nursing facility staff
                      might use in developing a plan of care for the individual.

                      Of the 18 Level II evaluations that were in the resident case files,
                      7 were not completed prior to or on the date of admission. These seven
                      Level II evaluations were completed an average of 23 days after the
                      resident had been admitted to the nursing facility. For another five
                      residents, SMRA deemed that a Level II evaluation was not required,
                      but the case file lacked documentation justifying that decision. During
                      our review of selected resident case files in 20 nursing facilities, we
                      collected data on the content required by Federal regulations (e.g.,
                      summary of medical and social history, whether specialized services are
                      recommended). We also sought the treatment plans in resident case
                      files to determine whether recommended services were included.
                      However, since only 11 resident case files contained timely Level II
                      evaluations, a meaningful review of Level II evaluation content was not
                      possible.
                      Level II determinations were missing
                      Of the 101 selected resident case files, 56 lacked documented evidence of
                      the Level II determination. SMRA must determine whether an
                      individual with mental retardation requires a nursing facility level of
                      services and whether specialized services are needed.31 This
                      determination may be conveyed to the nursing facility verbally at first,
                      but SMRA must confirm the determination in writing.32 Inasmuch as
                      Level II determinations typically are based on Level II evaluations, the
                      45 selected resident case files containing evidence of a Level II
                      determination suggest that more than 18 residents may have received a
                      Level II evaluation. However, given the lack of Level II evaluations in
                      selected case files, we could not ascertain whether these evaluations
                      were simply missing or whether the residents did not require such an
                      evaluation.


                         31 42 CFR § 483.130(l)(1)-(2). 

                         32 42 CFR § 483.112(c)(2). 





    OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                             10
                                                                                                      Report Template Update = 04-30-05_rev.13




   F   I N D I N G        S 




          Twenty-two percent of sampled Level II              The selected resident case files from
                                                              nursing facilities we visited
   evaluations did not contain evidence that the
                                                              contained evidence of only 18 Level
     evaluator assessed whether the individual’s
                                                              II evaluations. To allow for a more
total needs could be met in a community setting               thorough review of Level II
                                                              evaluations, we randomly selected
                         Level II evaluations from SMRAs that were completed in 2004 and
                         reviewed a total of 121 Level II evaluations from the 5 selected States.

                         Federal regulations require evaluators to assess whether an individual’s
                         total needs can be met in a community setting or only on an inpatient
                         basis.33 If an inpatient setting is determined to be the most
                         appropriate, then such settings may include intermediate care facilities
                         for the mentally retarded, nursing facilities, or waiver programs. If an
                         individual’s needs can be met in the community, then nursing facility
                         services are not needed. Twenty-two percent (27 of 121) of sampled
                         Level II evaluations did not contain evidence that the evaluator
                         assessed whether the individual’s total needs could be met in a
                         community setting; instead, these evaluations contained evidence that
                         the evaluator assessed solely whether such needs could be met in a
                         nursing facility. In the remaining 78 percent (94 of 121) of the sampled
                         cases, evaluators documented their assessments of the individual’s
                         medical needs, mental status, and independent living skills to
                         substantiate the most appropriate setting for the individual.

                         During our structured interviews, officials from two States described
                         practices other than PASRR that may address placement and provision
                         of services for persons with mental retardation. These practices are
                         described in Appendix A.



                                                              Limited oversight of preadmission
   CMS and the survey and certification agencies              screening processes occurred at
    in the five States that we reviewed conducted             both the Federal and State levels.
                                  limited oversight           Only one of the five selected
                                                              States reported specific oversight
                         practices aimed at ensuring compliance with the PASRR. These
                         practices are described in Appendix B.




                            33 42 CFR § 483.132.




       OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                                11
                                                                                                   Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S


                      Only two CMS regional offices have conducted onsite PASRR reviews in the
                      past 3 years
                      Staff from 2 of the 10 CMS regional offices conducted onsite State
                      reviews of the PASRR during 2002 through 2005. An official from one
                      regional office indicated that it was “just getting started” again with the
                      PASRR oversight. Beginning in June 2005, staff from this CMS
                      regional office identified the PASRR contact persons in each State in its
                      region, developed a survey inquiring about States’ PASRR processes,
                      outlined State responsibilities in initial telephone calls to States, and
                      planned to continue telephone calls with States on a quarterly basis.
                      Officials from 7 of the 10 CMS regional offices reported that they have
                      not conducted oversight related to the PASRR in the past 3 years.
                      One of the five selected States failed to track and maintain Level II
                      evaluations as required
                      When we requested a list of all Level II PASRR evaluations and
                      determinations conducted in 2004, one State responded that it “do[es]
                      not currently have a system for tracking when these [PASRR Level II
                      evaluations] are requested or completed other than by looking in the
                      [individual’s] case file.” As a result, the State agency submitted a list of
                      43 individuals admitted to nursing facilities in 2004. For these
                      individuals, the State reported that only one Level II evaluation was
                      completed in 2004. The State identified 4 deceased individuals for
                      whom the PASRR status was unknown, and 12 individuals for whom
                      there was no record of a completed Level II evaluation. Therefore, this
                      State was not in compliance with Federal regulations for establishing
                      and maintaining a tracking system for individuals with mental
                      retardation residing in nursing facilities. 34
                      Survey and certification agencies in the five selected States conducted
                      limited oversight of the PASRR processes in nursing facilities
                      Surveyors from four States indicated that they would assess PASRR
                      compliance if a person with mental retardation appeared in the sample
                      or as part of an extended survey.35 A surveyor from the fifth State
                      reported that a complaint or hotline referral would prompt further
                      investigation into whether the nursing facility was meeting the overall
                      care needs of residents with mental retardation.


                         34 42 CFR § 483.130(p).
                         35 An extended survey occurs when a facility is found to have furnished substandard
                      quality of care during a standard survey.



    OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                             12
                                                                                                   Report Template Update = 04-30-05_rev.13




F   I N D I N G        S


                      If surveyors identified noncompliance with Federal regulations
                      concerning the PASRR, a deficiency tag (F285) was cited.36 In 2004,
                      surveyors cited 101 instances of F285 in approximately 16,000 nursing
                      facilities nationwide. While survey and certification officials from all
                      five States indicated that they monitor nursing facility compliance with
                      PASRR requirements, one State surveyor concluded, “PASRR is
                      underlooked, not overlooked.”




                         36 CMS State Operations Manual, Appendix PP, § 483.20(m).




    OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                             13
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   R E C O M M E N D A T I O N S                                                                      


                  The PASRR process was created to ensure that individuals with mental
                  retardation are not inappropriately placed in Medicaid nursing
                  facilities. The PASRR is the primary mechanism to ensure that
                  individuals with mental retardation are screened, evaluated, and placed
                  in nursing facilities when appropriate, and receive identified needed
                  services. It is essential that all State PASRR systems work effectively.

                  This evaluation of the PASRR found that while 88 percent of selected
                  resident case files contained Level I screens, only 8 percent met all
                  Level II PASRR requirements. In addition, 22 percent of sampled
                  Level II evaluations did not contain evidence that the evaluator
                  assessed whether the individual’s total needs could be met in a
                  community setting. Finally, CMS and the survey and certification
                  agencies in the five States that we reviewed conducted limited oversight
                  of the PASRR.

                  We based our findings on selected case files and a random sample of
                  Level II evaluations from five selected States. As such, we do not
                  project our results. However, the findings identify deficiencies that
                  should be addressed to ensure that individuals with mental retardation
                  are appropriately placed and receive necessary mental retardation
                  services. We therefore recommend the following to CMS:
                  Hold State Medicaid agencies accountable for ensuring compliance with
                  Federal requirements. Specifically, we recommend that:
                  o	 every nursing facility applicant receive a Level I PASRR screen
                     prior to nursing facility admission, and
                  o	 all individuals with suspected mental retardation receive a Level II
                     evaluation and determination prior to nursing facility admission
                     and all Level II PASRR documentation is shared with the admitting
                     nursing facility.

                  To address the above recommendations, we have several specific
                  suggestions for CMS to consider. First, CMS could require that State
                  Medicaid agencies provide data to CMS regarding the number of
                  completed Level I PASRR screens and the number of expected and
                  completed Level II evaluations and determinations, and nursing facility
                  confirmation of receipts of the PASRR documentation. Alternatively, as
                  part of CMS’s current efforts to modify the MDS, CMS could consider
                  adding a data element to indicate whether a Level I PASRR screen and
                  Level II evaluation and determination have been completed. Finally,
                  we suggest that CMS distribute both its draft State self-assessment


OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         14
                                                                                                   Report Template Update = 04-30-05_rev.13




R   E C O        M M E N D A T                        I O N              S


                      form and its draft regional office assessment form as tools to regularly
                      collect information about each State’s PASRR processes.
                      Hold States accountable for considering community placements during the
                      Level II PASRR process

                      Revise survey and certification requirements to ensure that State surveyors:
                      o sample residents with mental retardation, and

                      o review all PASRR documentation for timely completion.


                      AGENCY COMMENTS
                      CMS concurred with all of our recommendations. CMS intends to
                      remind States of their obligation to implement effective and timely
                      Level I and Level II processes, clarifying for States all of the Level II
                      elements required by Federal regulation. In addition, CMS intends to
                      review State claims, if necessary, to ensure that States recoup Federal
                      Financial Participation from nursing facilities for any days claimed
                      prior to the completion of all PASRR documentation. CMS intends to
                      review the forms and tools used by each State for the PASRR Level II
                      evaluation and determination to assess whether they include
                      consideration of community placement. To address our final
                      recommendation regarding revising survey and certification
                      requirements to ensure oversight of PASRR, CMS stated it will ensure
                      that a resident requiring a Level II PASRR is included in the resident
                      sample during a nursing facility survey. CMS’s comments did not
                      warrant any revisions to the results of our review or to our
                      recommendations. For the full text of CMS’s comments, see
                      Appendix C.




    OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                             15
                                                                                               Report Template Update = 04-30-05_rev.13




Δ      A P P E N D I X                               ~            A


                  Examples of State Practices Other Than PASRR That May Address
                  Placement and Provision of Services
                  Through our evaluation, we identified a significant level of missing or
                  late PASRR documentation. However, during structured interviews
                  with officials from five States, respondents described a few examples of
                  efforts to address placement and provision of services for individuals
                  with mental retardation through processes other than the PASRR. For
                  example, State Medicaid agencies define level-of-care criteria for
                  nursing facility placement, which can include such things as amount of
                  assistance an individual requires with mobility, diet, or personal care.
                  We found that this process either preceded or was combined with the
                  PASRR Level I screens in the five States.

                  Instances in which States employed processes other than the PASRR to
                  address placement and/or provision of services for nursing facility
                  residents with mental retardation include the following:

                  o	 Officials in Washington used a decision tree when considering
                     placement of persons with mental retardation. This process
                     considered all other residential settings, such as personal care
                     services provided in the home, adult family home services, group
                     homes, supported living, and shared living, with nursing facility
                     placement as a last resort.

                  o	 Officials in Connecticut described significant involvement by the
                     case managers of SMRA in the placement and care planning process
                     for nursing facility residents with mental retardation. In that State,
                     individuals with mental retardation may be placed in nursing
                     facilities for 30 days based on a medical diagnosis. A Department of
                     Mental Retardation employee monitors the resident during the
                     30-day period and determines whether additional time in the
                     nursing facility is needed. The nursing facility staff that we
                     interviewed in Connecticut confirmed that case managers are
                     involved in quarterly care planning meetings. If a nursing facility
                     resident experiences a significant change of condition while in the
                     nursing facility, the case manager is contacted and changes to the
                     care plan are discussed. Finally, the case manager ensures that the
                     nursing facility resident receives any recommended specialized
                     services financed by the State.




OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         16
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   A P P E N D I X                              ~           B             


                  PASRR Oversight Practices in One State
                  One selected State implemented two oversight mechanisms aimed at
                  ensuring that nursing facilities comply with Federal regulations
                  concerning the PASRR. In West Virginia, the Department of Health
                  and Human Resources sends a memorandum outlining the PASRR
                  process to the nursing facility each time a prospective resident is
                  referred for a Level II evaluation. The memorandum delineates the
                  steps that the nursing facility must take to arrange for the initial
                  Level II evaluation, the circumstances in which a subsequent Level II
                  evaluation is required as a result of significant change in the resident’s
                  condition, and how the nursing facility should notify the State that a
                  Level II evaluation will not be completed after referral. State officials
                  indicated that this practice has been helpful in communicating PASRR
                  requirements to nursing facility staff, which may experience frequent
                  turnover. In addition, West Virginia conducts annual followup on the
                  status of Level II evaluations that have been referred, but not
                  conducted. If a nursing facility resident never received a Level II
                  evaluation, State officials direct the nursing facility to arrange for one.




OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         17
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   A P P E N D I X                              ~           C             


                  Centers for Medicare & Medicaid Services’ Comments




OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         18
                                                                                                 Report Template Update = 04-30-05_rev.13




A G   E N     C Y     C O            M M E N T                          S 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           19
                                                                                                 Report Template Update = 04-30-05_rev.13




A G   E N     C Y     C O            M M E N T                          S 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           20
                                                                                                 Report Template Update = 04-30-05_rev.13




A G   E N     C Y     C O            M M E N T                          S 





 OEI-07-05-00230    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                           21
                                                                                               Report Template Update = 04-30-05_rev.13




Δ   A C K N O W L E D G M E N T S                                                                        


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Deputy Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Tricia Fields, Team Leader
                  Michael Barrett, Program Analyst

                  Scott Horning, Program Analyst

                  Amber Meurs, Program Analyst

                  Dennis Tharp, Program Analyst

                  Sandy Khoury, Program Specialist

                  Tricia Davis, Director, Medicare Branch




OEI-07-05-00230   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H M E N TA L R E TA R D AT I O N
                                                                                                                                         22
